              Audit Report



    Representative Payees and
Beneficiaries Who Were Residing in
          Different States




       A-02-14-14044 | August 2014
MEMORANDUM


Date:      August 27, 2014                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Representative Payees and Beneficiaries Who Were Residing in Different States
           (A-02-14-14044)

           The attached final report presents the results of our audit. Our objectives were to determine
           whether (1) representative payees who were residing in a State different from the beneficiaries
           they represented used Social Security and Supplemental Security Income payments to the
           beneficiaries’ best interests and (2) the Social Security Administration effectively monitored
           beneficiaries whose representative payees resided in different States.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Representative Payees and Beneficiaries Who Were Residing
in Different States
A-02-14-14044
August 2014                                                                  Office of Audit Report Summary

Objective                                   Our Findings

To determine whether                        Based on our observations during our visit, we believe the
(1) representative payees who were          representative payees were using beneficiaries’ benefits to meet
residing in a State different from the      their food, clothing, and shelter needs in all but two cases. We
beneficiaries they represented used         referred these two cases to SSA to determine whether the
Social Security and Supplemental            representative payees were suitable to manage benefits for the
Security Income payments in the             beneficiaries they represented. SSA has taken action on one of
beneficiaries’ best interests and (2) the   these cases. Additionally, we were unable to determine whether
Social Security Administration (SSA)        41 (23 percent) of the beneficiaries’ needs were being met because
effectively monitored beneficiaries         the representative payees or their beneficiaries refused to participate
whose representative payees resided in      in our review or we were unable to contact them. We also found
different States.                           that SSA did not mail Representative Payee Reports (RPR) to all
                                            representative payees, as required, and did not always follow up
Background                                  with representative payees who did not submit their accounting
                                            reports.
Some individuals cannot manage or
direct the management of their              Our Recommendations
finances because of their youth or
mental and/or physical impairments.         1. Determine the suitability of the representative payee who
Congress granted SSA the authority to          appeared to not be meeting the needs of the beneficiary at the
appoint representative payees to               time of our visit. If the representative payee is unsuitable, SSA
receive and manage these                       should assign a new representative payee.
beneficiaries’ payments.
Representative payees are responsible       2. Determine whether additional action is necessary to address the
for managing benefits in the                   21 representative payees who refused to participate in our
beneficiary’s best interests.                  review and the 20 representative payees we were unable to
                                               contact.
SSA should consider all factors when
selecting a representative payee,           3. Determine whether additional oversight is required for
including the applicant’s relationship         representative payees who reside in a State different from the
to the beneficiary; the applicant’s            beneficiaries they represent based on any action taken in
interest in the beneficiary’s well-being;      response to Recommendations 1 and 2.
and whether the applicant has custody
of, or lives in close proximity to, the     4. Take appropriate action in response to the representative payees
beneficiary.                                   who did not submit an RPR.

We reviewed 180 beneficiaries who           5. Send RPRs to the seven representative payees who should have
resided in a non-contiguous State from         received them, but did not.
their representative payees.
                                            6. Ensure representative payees for concurrent beneficiaries who
                                               become ineligible for Title XVI payments receive RPRs for the
                                               Title II benefits the beneficiaries continue to receive.

                                            SSA agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Beneficiary Visits.......................................................................................................................3
     Representative Payees and Beneficiaries Who Declined to Participate in Our Review ............5
     Beneficiaries Whose Addresses Had Changed ..........................................................................5
           SSI Recipients with Address Changes .................................................................................6
           Allegation of Mother Who Did Not Have Custody of Her Child ........................................6
           Mother Who No Longer Wished to Be Representative Payee ............................................7
     Beneficiaries We Could Not Contact .........................................................................................7
     SSA Oversight of Representative Payees ..................................................................................9
           RPRs Not Sent to Representative Payees ............................................................................9
Conclusions ....................................................................................................................................11
Recommendations ..........................................................................................................................11
Agency Comments .........................................................................................................................11
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Agency Comments .............................................................................................. B-1
Appendix C – Major Contributors.............................................................................................. C-1




Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)
ABBREVIATIONS
C.F.R.                Code of Federal Regulations

MBR                   Master Beneficiary Record

OASDI                 Old-Age, Survivors and Disability Insurance

OIG                   Office of the Inspector General

POMS                  Program Operations Manual System

RPR                   Representative Payee Report

RPS                   Representative Payee System

SSA                   Social Security Administration

SSI                   Supplemental Security Income

SSR                   Supplemental Security Record

U.S.C.                United States Code




Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)
OBJECTIVE
The objectives of our review were to determine whether (1) representative payees who were
residing in a State different from the beneficiaries they represented used Social Security and
Supplemental Security Income (SSI) payments in the beneficiaries’ best interests and (2) the
Social Security Administration (SSA) effectively monitored beneficiaries whose representative
payees resided in different States.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of their
youth or mental and/or physical impairments. Congress granted SSA the authority to appoint
representative payees to receive and manage these beneficiaries’ benefit payments. 1 A
representative payee may be an individual or an organization. SSA selects representative payees
for Old-Age, Survivors and Disability Insurance (OASDI) 2 beneficiaries and SSI3 recipients
when it serves the beneficiaries’ interests.

The Social Security Act requires that SSA exercise care when selecting a representative payee 4
and monitoring a representative payee’s performance. 5 SSA policy instructs employees to select
the applicant best suited to serve as a representative payee. 6 While SSA policy contains a
preference list, 7 the Agency instructs employees to consider all factors, including the applicant’s
relationship to the beneficiary; the applicant’s interest in the beneficiary’s well-being; and
whether the applicant has custody of, or lives in close proximity to, the beneficiary. 8

Representative payees are responsible for managing benefits in the beneficiary’s best interests 9
as well as keeping records and reporting how they spend benefits. 10 For beneficiaries residing in
the Unites States, representative payees are required to complete an annual Representative Payee
Report (RPR). SSA uses RPRs to monitor how representative payees spend and/or save benefits


1
    Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1)(A) and 1383(a)(2)(A)(ii).
2
 The OASDI program provides benefits to qualified retired and disabled workers and their dependents as well as to
survivors of insured workers. Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
3
 The SSI program provides payments to individuals who have limited income and resources and who are age 65 or
older, blind, or disabled. Social Security Act §1601et seq.; 42 U.S.C. § 1381 et seq.
4
    Social Security Act §§ 205(j)(2) and 1631(a)(2)(B), 42 U.S.C. §§ 405(j)(2) and 1383(a)(2)(B).
5
    Social Security Act §§ 205(j)(3)(A) and 1631(a)(2)(C)(i), 42 U.S.C. §§ 405(j)(3)(A) and 1383(a)(2)(C)(i).
6
    SSA, POMS, GN 00502.105 A. (August 2, 2011).
7
    SSA, POMS, GN 00502.105 B., C., and D. (August 2, 2011).
8
    20 C.F.R. §§ 404.2020 and 416.620. SSA, POMS, GN 00502.105 A. and E. (August 2, 2011).
9
 20 C.F.R. §§ 404.2035 and 416.635. In this report, we use the term “benefits” to refer to OASDI benefits and SSI
payments. Likewise, we use the term “beneficiaries” to refer to OASDI beneficiaries and SSI recipients.
10
     20 C.F.R. §§ 404.2065 and 416.665.



Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)                                1
on their beneficiaries’ behalf and identify situations where representative payment may no longer
be appropriate or the representative payee may no longer be suitable.

Our review of SSA’s Master Beneficiary Record (MBR), Supplemental Security Record (SSR),
and Representative Payee System (RPS) identified records of beneficiaries who appeared to be
residing in a non-contiguous State from their representative payees. 11 Upon initial review of the
records, we identified beneficiaries who appeared to be residing in the United States but whose
representative payees appeared to be residing in a foreign country. We decided to first determine
whether those representative payees properly managed benefits for their beneficiaries and issued
a report on Representative Payees Residing in Foreign Countries or U.S. Territories Who
Represent Beneficiaries Residing in the United States in November 2013. 12

For this review, we identified 24,607 beneficiaries 13 who had an address in 1 State, while their
representative payees had an address in a non-contiguous State. We attempted to contact a
sample of 180 14 of these beneficiaries to determine whether the representative payees used
payments in the beneficiaries’ best interests.

We mailed letters to the representative payees informing them of our review and attempted to
interview them shortly thereafter by telephone. If we were unable to contact the representative
payees, we attempted to contact the beneficiaries. We also used SSA records to determine
whether SSA had updated the representative payees’ address information between the time we
selected our sample and the time we attempted to contact them. When we contacted
representative payees, we requested to visit the beneficiaries’ residences to observe their living
conditions. See Appendix A for our scope and methodology.

RESULTS OF REVIEW
We successfully contacted 160 of the 180 representative payees in our sample. Of these 160,
120 allowed us to visit the residences of the beneficiaries they represented. Based on our
observations during our visit, we believe the representative payees were using beneficiaries’
benefits to meet their food, clothing, and shelter needs in all but two cases. We referred these
two cases to SSA to determine whether the representative payees were suitable to manage
benefits for the beneficiaries they represented. SSA has since taken action on one of these cases.




11
     The State in which the beneficiary resided did not border the State in which the representative payee resided.
12
  SSA OIG, Representative Payees Residing in Foreign Countries or U.S. Territories Who Represent Beneficiaries
Residing in the United States (A-02-13-13048), November 2013.
13
  The 24,607 beneficiaries comprised 14,003 OASDI beneficiaries, 8,842 SSI recipients, and 1,762 concurrent
beneficiaries.
14
  The 180 beneficiaries comprised 100 OASDI beneficiaries, 50 SSI recipients, and 30 concurrent beneficiaries.
The 180 representative payees comprised 176 individual representative payees and 4 organizational representative
payees.



Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)                                  2
                      Figure 1: Review Results of 180 Sampled Beneficiaries



                            Deceased
                           Beneficiary       Non-Responders
                               1                  20
                     Beneficiaries
                       Moved To
                       Different
                       Addresses
                           18
           Payees Declined
            To Participate
                 21

      Payees Did Not
     Meet Beneficiaries'                                                         Payees Met Needs
          Needs                                                                   of Beneficiaries
            2                                                                           118

We did not visit 40 beneficiaries represented by the 160 representative payees we contacted:

   21 of the representative payees or their beneficiaries declined to participate in our review;.

   18 of the representative payees reported their beneficiaries had moved to a different address;
    and

   1 beneficiary died after we selected our sample (SSA was informed of the beneficiary’s
    death).

We were unable to contact 20 of the 180 representative payees in our sample. We attempted to
contact the beneficiaries they represented and were similarly unsuccessful.

Per SSA policy, SSA should have obtained RPRs from the 180 representative payees in the
12 months that preceded the start of our audit. However, SSA only obtained RPRs from 171.
Two representative payees did not return the RPR, as required. SSA took corrective action in
one of the two cases. SSA also did not comply with its policy to send RPRs to the remaining
seven representative payees.

Beneficiary Visits
Of the 180 representative payees in our sample, 120 agreed to our visits with the beneficiaries
they represented. Based on interviews with beneficiaries and personal observations of their
residences, we concluded the following.

   In 118 cases, the beneficiaries’ food, clothing, and shelter needs were being met at the time
    of our visit. Nothing came to our attention that led us to believe the representative payees did
    not use the Social Security benefits received for the beneficiaries’ needs.


Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)                 3
    We questioned whether the representative payees were meeting the needs of two
     beneficiaries at the time of our visit. We were concerned about the beneficiaries’ well-being
     and their representative payees’ suitability. We referred the cases to SSA for review as we
     became aware of the beneficiaries’ circumstances. The two cases are discussed below.

 Table 1: Residences of the Representative Payees and Beneficiaries (Questionable Cases)
                               Representative Payee’s
         Beneficiary                                                 Beneficiary’s Residence
                                    Residence
                1                    Massachusetts                              Kansas
                2                        Florida                              California

Case 1 – The beneficiary was not at his residence at the agreed upon time of our visit. The
exterior of the beneficiary’s house was littered with debris. Through a window, we observed that
the interior of the house was in disarray.

The beneficiary’s mother was the representative payee of record but reported to us that she had
delegated representative payee responsibilities to her husband, the beneficiary’s stepfather. The
husband reported he was not aware of the condition of the beneficiary’s residence. He also
reported that neither he nor the representative payee had visited the beneficiary for some time.
As of January 2014, the representative payee received $721 a month in SSA benefits on the
beneficiary’s behalf, $8,652 annually. SSA appointed the stepfather as the beneficiary’s
representative payee after we referred the case to the Agency for review. 15

Case 2 – The beneficiary was uncooperative and became agitated when we attempted to speak
with her. A neighbor reported to us the beneficiary was mentally unstable; had very little food,
which caused her weight loss; and occasionally complained to neighbors of pain because of a
tumor on her side. We observed trash, dirty dishes, and spoiled food in her apartment. While we
observed that the lights were off in the apartment, we visited during the daytime and were unable
to determine whether the lights were off because of unpaid bills or the time of day of our visit.
Because the beneficiary was uncooperative, we could not clarify this with her.

The apartment’s administrative staff reported that they did not believe anyone had visited the
beneficiary in a long time. The beneficiary's mother, who passed away more than 2 years ago,
had been her caregiver, and the beneficiary appeared to be better cared for when her mother was
alive. Because the beneficiary had made several false calls to 911, the representative payee had
disconnected her telephone. As of January 2014, the representative payee was managing $877 a
month in SSA benefits on the beneficiary’s behalf, $10,524 annually.

We referred the case to SSA in September 2013. That same month, the Agency indicated it had
located a relative of the beneficiary who resided in the same area and was willing to serve as the


15
 We referred the case to SSA in September 2013. SSA appointed the stepfather representative payee in
October 2013.



Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)                   4
representative payee. As of July 2014, SSA had not changed the beneficiary’s representative
payee.

Representative Payees and Beneficiaries Who Declined to
Participate in Our Review
In 21 cases, the representative payee or beneficiary refused to participate in our review.
Specifically, 16 representative payees declined to coordinate our visits with their beneficiaries’
residences. 16 Five other representative payees agreed to coordinate our visits, but the
beneficiaries they represented refused to participate in our review. Because we were unable to
interview the beneficiaries and observe their residences, we could not determine whether the
representative payees used the beneficiaries’ benefits in their best interests. As of January 2014,
SSA’s records indicated that 19 of the 21 17 beneficiaries were receiving $17,875 in monthly
benefit payments, $214,500 annually.

Although we were not allowed to visit with the beneficiary, one representative payee we spoke
with provided information that left us concerned he was not effectively managing the Social
Security funds he received on the beneficiary’s behalf. The 85-year-old representative payee,
who resided in Georgia, stated that the 50-year-old beneficiary, his son, lived in a “crummy”
hotel room in New York City. Each month, the representative payee deposited the beneficiary’s
benefit funds into a bank account from which his son could withdraw cash at any automated
teller machine in New York City. The representative payee declined to coordinate a visit to the
beneficiary, citing the beneficiary’s mental condition.

In February 2014, we referred the 21 cases to SSA for it to determine whether the representative
payees were meeting the needs of the beneficiaries they represented. As of July 2014, SSA
changed the representative payee of one beneficiary.

Beneficiaries Whose Addresses Had Changed
Eighteen representative payees reported that the beneficiaries they represented lived at an
address different from the address listed in SSA’s records when we selected the records for
review. Through interviewing the representative payees and reviewing SSA’s electronic records,
we identified several problematic cases.

    Two representative payees who represented SSI recipients did not report their address
     changes to SSA.




16
 According to SSA’s records, a beneficiary represented by 1 of the 16 representative payees was incarcerated in
August 2013.
17
  One beneficiary, a disabled child, became ineligible for benefits because of her parent’s work activity. The other
beneficiary was incarcerated, which made him ineligible for benefits.



Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)                                   5
      A mother who served as the representative payee for her daughter reportedly received her
       daughter’s benefits for years even though she did not have custody of the child.

      Another mother reported she no longer wanted to be her son’s representative payee.

SSI Recipients with Address Changes
Of the 18 individuals who reportedly had moved, 4 were receiving SSI payments. Two of their
representative payees did not report the address changes to SSA, which could affect the SSI
payment amount of the recipients they represented. SSI recipients’ representative payees are
required to report changes 18 that may affect SSI eligibility or payment amounts, including
address changes. 19 We referred these two cases to SSA for review in February 2014. While the
representative payees reported that the recipients had moved, as of July 2014, the recipients’
addresses in SSA’s systems had not changed.

Allegation of Mother Who Did Not Have Custody of Her Child
We included the case in our review because SSA’s records indicated the representative payee
lived in South Carolina, and the beneficiary lived in New Jersey when we selected our sample.
Before calling the representative payee, we reviewed SSA’s records to determine whether
changes had occurred. SSA had appointed a new representative payee since we selected our
sample.

We spoke with the new representative payee who reported that she adopted the beneficiary in
April 2008, and the beneficiary lived with her in New Jersey. When she applied for Social
Security benefits on the beneficiary’s behalf in November 2012, SSA informed her that the
beneficiary was already receiving benefits, which were being sent to the beneficiary’s biological
mother who resided in South Carolina. The biological mother appeared to lose custody of the
beneficiary in April 2008, but continued receiving SSA benefits on the beneficiary’s behalf. 20
SSA was unaware of the change of custody until the adoptive mother applied for benefits.

SSA confirmed that the beneficiary’s biological mother had been under review for misuse of
funds since November 2012. Upon our review in November 2013, SSA had not developed the
case to determine whether the biological mother was improperly paid, and SSA had not referred
the case to our Office of Investigations. We requested that SSA review the case.

In February 2014, SSA reported that it determined the allegation was unfounded because it could
not locate the previous representative payee, and the current representative payee did not provide



18
     SSA, POMS, SI 02301.005 (October 25, 2013).
19
  A change of address may indicate a change in circumstances occurred, which may affect a recipient’s continuing
SSI eligibility or payment amount.
20
  According to SSA’s records, the biological mother alleged that the beneficiary was in her custody on an RPR
completed in May 2012.



Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)                               6
sufficient evidence to support the whereabouts of the beneficiary for the time in question. We
forwarded the case to our Office of Investigations in February 2014, which referred the case to
SSA for administrative action. SSA paid the biological mother $12,963 from April 2008 to
November 2012, the period SSA was unable to definitively determine the whereabouts of the
beneficiary.

Mother Who No Longer Wished to Be Representative Payee
An 88-year-old mother who resided in Idaho represented her 49-year-old son who had moved
from Massachusetts to Oregon. The mother reported that she no longer wanted to be her son’s
representative payee because of her age and forgetfulness. From our conversation with her, it
appeared she had no oversight of the beneficiary.

We contacted the beneficiary through a telephone number provided by his mother. The
beneficiary reported that he was a transient in Oregon, and occasionally slept on the street and in
the park. His mother granted him access to a bank account in which she deposited his Social
Security benefit so he could withdraw cash in Oregon.

The beneficiary reported his Social Security benefits often ran out before the end of the month,
and he had to go to a church or beg for food. As of January 2014, the representative payee
managed $741 a month in SSA benefits on the beneficiary’s behalf, over $8,800 annually. In
February 2014, we referred this case to SSA for it to determine whether the representative payee
continued to be capable of meeting the needs of the beneficiary. As of July 2014, SSA had not
changed the beneficiary’s representative payee.

Beneficiaries We Could Not Contact
We were unable to contact the representative payees for 20 beneficiaries after we sent them
multiple letters and attempted to call them multiple times. When we could not contact the
representative payees, we attempted to contact the beneficiaries and were similarly unable to
contact them. As such, we could not determine whether the representative payees properly
managed the beneficiaries’ benefit payments. As of January 2014, 18 of the 20 21 beneficiaries
received a total of $14,434 in monthly benefits, over $173,000 annually.

Many of the beneficiaries we could not contact were children or seniors. Also, some had mental
impairments. 22 See Table 2.

In February 2014, we referred these cases to SSA to determine whether the representative payees
were meeting the needs of their beneficiaries. Additionally, we referred these cases to our Office
of Investigations. It was able to contact 6 of the 20 representative payees, and did not identify



21
  One beneficiary became ineligible for childhood benefits upon reaching age 18. The other beneficiary became
ineligible for benefits because the unearned income he received was above the allowable limit.
22
     According to SSA records, 107 (60 percent) of the 180 beneficiaries in our sample had mental impairments.



Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)                             7
fraud in these cases. It reviewed another five cases and referred them to SSA for further
development. It either closed the remaining allegations because it determined the fraud was
unsubstantiated, there was no evidence that the beneficiary was out of the representative payee’s
care, there was a change of representative payee, or the representative payee had died.

       Table 2: Characteristics of Beneficiaries and Representative Payees Not Contacted
                            Age of Beneficiary     Beneficiary with Mental
            Beneficiary                                                          Type of Benefit
                            as of January 2014          Impairment?
                 1                   6                        No                       OASDI
                 2                  15                        No                       OASDI
                 3                  15                        No                       OASDI
                 4                  16                        No                       OASDI
                 5                  18                        No                       OASDI
                 6                  21                        Yes                       SSI
                 7                  22                        Yes                       SSI
                 8                  25                        Yes                       SSI
                 9                  26                        Yes                 Concurrent 23
                10                  38                        Yes                       SSI
                11                  45                        Yes                       SSI
                12                  47                        Yes                      OASDI
                13                  51                        Yes                       SSI
                14                  51                        Yes                       SSI
                15                  55                        Yes                  Concurrent
                16                  58                        Yes                       SSI
                17                  75                        No                       OASDI
                18                  88                        No                       OASDI
                19                  92                        No                       OASDI
                20                  100                       No                       OASDI




23
     Concurrent beneficiaries receive both OASDI and SSI benefits.



Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)               8
SSA Oversight of Representative Payees
Representative payees are required to keep records and report how they spend the benefits
received on behalf of beneficiaries they represent. 24 To assist in this responsibility, SSA mails
annual RPRs to representative payees. SSA uses the RPRs to monitor how representative payees
spend and/or save benefits on the beneficiary’s behalf and identify situations where
representative payment may no longer be appropriate or the representative payee may no longer
be suitable. Representative payees are required to complete the forms and return them to SSA.
SSA received RPRs from 171 of the 180 representative payees in our sample.

If a representative payee does not respond to, or will not cooperate with, efforts to obtain an
RPR, SSA may consider a change of representative payee or initiate direct payment to the
beneficiary.

Two representative payees did not return the RPRs SSA mailed to them. We did not visit the
beneficiaries these representative payees represented because we were unable to contact them.
To our knowledge, SSA had not visited these beneficiaries. In one case, SSA suspended the
beneficiary’s payment in January 2014. 25

In the other case, SSA’s records indicated the representative payee had an undeliverable address,
but SSA did not develop for a new representative payee or initiate direct payment to the
beneficiary. As of January 2014, the representative payee continued receiving monthly benefit
payments of $480, over $5,760 annually, by direct deposit on the beneficiary’s behalf. We
referred this case to SSA for further review in February 2014. As of July 2014, the
representative payee’s address in SSA’s records had not changed. We also could not identify
any indication in SSA’s records that it attempted to identify a deliverable address for the
representative payee.

RPRs Not Sent to Representative Payees
SSA did not send RPRs to seven representative payees, as required, even though they had served
multiple years as representative payees. For example, SSA had not sent one of the representative
payees an RPR to complete in over 20 years. See Table 3 for the period SSA did not issue a
RPR for each of the seven representative payees.




24
     SSA, POMS, GN 00605.001 B.1. (May 15, 2013).
25
     According to SSA records, the Agency was unable to locate the beneficiary to initiate direct payment.



Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)                         9
                             Table 3: SSA Benefit Paid, But RPR Not Issued

                  Beneficiary           No RPR Issued                SSA Benefit Paid
                                        August 1991 to
                         1                                                $158,209
                                        December 2013
                                         April 1998 to
                         2                                                $175,414
                                        December 2013
                                        October 2003 to
                         3                                                $101,221
                                        December 2013
                                          May 2005 to
                         4                                                $101,735
                                        December 2013
                                       September 2005 to
                         5                                                  $90,884
                                        December 2013
                                          June 2006 to
                         6                                                  $43,980
                                        December 2013
                                         April 2009 to
                         7                                                  $48,556
                                        December 2013
                      Total                                               $719,999

As of January 2014, the seven representative payees were managing $6,559 in monthly benefits,
or over $78,700 annually. We have found in other audits that SSA did not always mail RPRs to
representative payees. 26

Per SSA, the RPRs were not generated for the seven beneficiaries because of a change in their
eligibility for SSI payments. The seven beneficiaries were concurrently receiving OASDI and
SSI benefits. In such cases, the RPR was generated by the beneficiary’s SSR. To ensure payees
only receive one RPR, the MBR was set to suppress generation of a RPR. When the concurrent
beneficiaries became ineligible for SSI payments, the SSR no longer initiated an RPR for their
representative payees, and the MBR continued to suppress the RPR.

We visited the seven beneficiaries as part of this audit, and nothing came to our attention that led
us to believe the representative payees did not use the Social Security benefits for the
beneficiaries’ needs. Still, SSA had not monitored how the seven representative payees spent
nearly $720,000 over multiple years because it failed to mail RPRs.




26
  SSA OIG, Representative Payees Residing in Foreign Countries or U.S. Territories Who Represent Beneficiaries
Residing in the United State (A-02-13-13048), November 2013, p.9, and Emerge, Incorporated, An Organizational
Representative Payee for the Social Security Administration (A-13-10-21087), March 2011, p.9 and p.10.



Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)                        10
CONCLUSIONS
Of the 180 representative payees we reviewed, we questioned whether 2 (1 percent) were
meeting the beneficiaries’ needs at the time of our visit. Additionally, we were unable to
determine whether 41 (23 percent) of the beneficiaries’ needs were being met because the
representative payees or their beneficiaries refused to participate in our review or we were unable
to contact them. We also found that SSA did not mail accounting reports to all representative
payees, as required, and did not always follow up with representative payees who did not submit
their accounting reports.

RECOMMENDATIONS
Accordingly, we recommend SSA:

1. Determine the suitability of the representative payee who appeared to not be meeting the
   needs of the beneficiary at the time of our visit. If the representative payee is unsuitable,
   SSA should assign a new representative payee.

2. Determine whether additional action is necessary to address the 21 representative payees who
   refused to participate in our review and the 20 representative payees we were unable to
   contact.

3. Determine whether additional oversight is required for representative payees who reside in a
   State different from the beneficiaries they represent based on any action taken in response to
   Recommendations 1 and 2.

4. Take appropriate action in response to the representative payees who did not submit an RPR.

5. Send RPRs to the seven representative payees who should have received them, but did not.

6. Ensure representative payees for concurrent beneficiaries who become ineligible for
   Title XVI payments receive RPRs for the Title II benefits the beneficiaries continue to
   receive.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix B.




Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)               11
                                         APPENDICES




Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

   Reviewed the Social Security Act, applicable Federal regulations, and the Social Security
    Administration’s (SSA) policies and procedures pertaining to representative payees.

   Reviewed prior Office of the Inspector General and SSA work on the Representative
    Payment Program.

   Obtained data extracts from SSA’s Master Beneficiary Record (MBR) in August 2012 and its
    Supplemental Security Record (SSR) and Representative Payee System (RPS) in
    December 2012.

Upon initial review of the records, we identified beneficiaries who appeared to be residing in the
United States but whose representative payees appeared to be residing in a foreign country. We
decided to first determine whether those representative payees properly managed benefits for
their beneficiaries and issued the report, Representative Payees Residing in Foreign Countries or
U.S. Territories who Represent Beneficiaries Residing in the United States, in November 2013.

For this review, we identified 14,003 Old-Age, Survivors and Disability Insurance (OASDI)
beneficiaries, 8,842 Supplemental Security Income (SSI) recipients, and 1,762 concurrent
beneficiaries who appeared to reside at an address in 1 State but whose representative payees
appeared to reside at an address in a different and non-contiguous State.

The MBR for the OASDI cases selected included a representative payee with an address in one
State and an indicator that another State was actively exchanging beneficiary information with
SSA. Additionally, the OASDI beneficiaries had an address in one State in RPS, while their
representative payees had an address in another non-contiguous State in the MBR. The SSI
recipients and concurrent beneficiaries had an address in the SSR in one State, and their
representative payees had an address in the SSR in a different State.




Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)            A-1
Of the population, 4,150 of the 14,003 OASDI beneficiaries, 2,602 of the 8,842 SSI recipients,
and 544 of the 1,762 concurrent beneficiaries resided within 100 miles of an Office of Audit
location. From those beneficiaries, we sampled 100 OASDI beneficiaries, 50 SSI recipients, and
30 concurrent beneficiaries 1 to determine whether their representative payees 2 were properly
managing their benefits.

   For each sampled beneficiary, we:

       Reviewed SSA records to determine whether SSA had updated the beneficiary or
        representative payee’s address information after we selected our sample and before we
        attempted to contact the representative payee.

       Reviewed the LexisNexis database to locate additional contact information for the
        beneficiary and the representative payee.

       Reviewed the LexisNexis database to determine whether the beneficiary’s representative
        payee had a criminal history.

       Mailed up to two letters to the representative payee regarding our review.

       Called the representative payee to confirm the residential address of the beneficiary and
        to discuss the representative payee’s management of the beneficiary’s benefit.

       Contacted the beneficiary when we could not contact the representative payee.

We contacted 120 beneficiaries to interview them and observe their living conditions. We also
reviewed available Representative Payee Reports for the beneficiaries.

We conducted our audit work from July 2013 to January 2014. We visited the residences of the
beneficiaries in our sample who resided within 100 miles of Baltimore, Maryland; Boston,
Massachusetts; New York, New York; Philadelphia, Pennsylvania; Atlanta, Georgia;
Birmingham, Alabama; Chicago, Illinois; Arlington, Virginia; Dallas, Texas; Denver, Colorado;
Kansas City, Missouri; and Richmond, California, between September and December 2013. The
principal entity reviewed was the Office of the Deputy Commissioner for Operations.




1
  We would expect that the characteristics of those beneficiaries residing within 100 miles of an Office of Audit
location would not differ from those who reside outside 100 miles of an Office of Audit location. Office of Audit
maintains offices in Baltimore, Maryland; Boston, Massachusetts; New York, New York; Philadelphia,
Pennsylvania; Atlanta, Georgia; Birmingham, Alabama; Chicago, Illinois; Arlington, Virginia; Dallas, Texas;
Kansas City, Missouri; Denver, Colorado; and Richmond, California.
2
 The 180 beneficiaries comprised 100 OASDI beneficiaries, 50 SSI recipients, and 30 concurrent beneficiaries. The
180 representative payees comprised 176 individual representative payees, and 4 organizational representative
payees.



Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)                            A-2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We tested the data obtained for our audit and determined them to
be sufficiently reliable to meet our objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)         A-3
           Appendix B – AGENCY COMMENTS




                                             SOCIAL SECURITY



MEMORANDUM


Date:      June 13, 2014                                                                    Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Representative Payees and Beneficiaries Who
           Were Residing in Different States” (A-02-14-14044) - INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)                 B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “REPRESENTATIVE PAYEES AND BENEFICIARIES WHO WERE
RESIDING IN DIFFERENT STATES” (A-02-14-14044)


Recommendation 1

Determine the suitability of the representative payee who appeared to not be meeting the needs
of the beneficiary at the time of our visit. If the representative payee is unsuitable, SSA should
assign a new representative payee.

Response

We agree. We have determined the current representative payee on record is suitable to manage
the beneficiary’s benefits.

Recommendation 2

Determine whether additional action is necessary to address the 21 representative payees who
refused to participate in our review and the 20 representative payees we were unable to contact.

Response

We agree. We will review the cases and take the appropriate actions by the end of fiscal year
(FY) 2014.

Recommendation 3

Determine whether additional oversight is required for representative payees who reside in a
state different from the beneficiaries they represent based on any action taken in response to
Recommendations 1 and 2.

Response

We agree. We will evaluate our results from the cases referenced in recommendations 1 and 2 to
determine if they warrant additional oversight.

Recommendation 4

Take appropriate action in response to the representative payees who did not submit a
Representative Payee Report.

Response

We agree. We will review the cases and take the appropriate action by the end of FY 2014.



Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)             B-2
Recommendation 5

Send RPRs to the seven representative payees who should have received them, but did not.

Response

We agree. We will review the seven cases and take the appropriate actions by the end of
FY 2014.

Recommendation 6

Ensure representative payees for concurrent beneficiaries who become ineligible for Title XVI
payments receive RPRs for the Title II benefits the beneficiaries continue to receive.

Response

We agree. We have analyzed the issue and can put an automated solution in place in the first
quarter of FY 2015.




Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)           B-3
Appendix C – MAJOR CONTRIBUTORS
Tim Nee, Director

Christine Hauss, Audit Manager

Vincent Huang, Program Analyst

William Kearns, IT Specialist

Brennan Kraje, Statistician




Representative Payees and Beneficiaries Residing in Different States (A-02-14-14044)   C-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
